Department of Homeland Security
   Ofﬁce of Inspector General

     Information Technology Management Letter for the 

         FY 2009 Immigration Customs Enforcement 

                  Financial Integrated Audit 





OIG-10-87                                         May 2010
                                                                                Office of Inspector General

                                                                     U.S. Department of Homeland Security
                                                                                   Washington, DC 25028




                                         May 18, 2010

                                             Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibilities to promote economy, efficiency, and effectiveness within
the department.

This report presents the information technology (IT) management letter for the FY 2009
Immigration and Custom Enforcement (ICE) financial statement audit as of September 30, 2009.
It contains observations and recommendations related to information technology internal control
that were summarized in the Independent Auditors’ Report, dated December 18, 2009 and
presents the separate restricted distribution report mentioned in that report. The independent
accounting firm KPMG LLP (KPMG) performed the audit procedures at ICE in support of the
DHS FY 2009 financial statements and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated April 1, 2010, and the conclusions
expressed in it. We do not express opinions on DHS’ financial statements or internal control or
conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. We trust that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                Frank Deffer 

                                Assistant Inspector General for 

                                Information Technology Audits

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036



April 1, 2010

Inspector General
U.S. Department of Homeland Security

Chief Information Officer and
Chief Financial Officer
Immigration and Customs Enforcement

Ladies and Gentlemen:
We have audited the consolidated balance sheet of the Immigration and Customs Enforcement
(ICE), a component of the U.S. Department of Homeland Security (DHS), as of September 30, 2009
and the related consolidated statements of net cost, changes in net position, and the combined
statement of budgetary resources (hereinafter referred to as “consolidated financial statements”) for
the year then ended. In planning and performing our audit of the consolidated financial statements
of ICE, in accordance with auditing standards generally accepted in the United States of America,
we considered ICE’s internal control over financial reporting (internal control) as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated
financial statements but not for the purpose of expressing an opinion on the effectiveness of ICE’s
internal control. Accordingly, we do not express an opinion on the effectiveness of ICE’s internal
control.
In planning and performing our fiscal year 2009 audit, we considered ICE’s internal control over
financial reporting by obtaining an understanding of the design effectiveness of ICE’s internal
control, determining whether internal controls had been placed in operation, assessing control risk,
and performing tests of controls as a basis for designing our auditing procedures for the purpose of
expressing our opinion on the consolidated financial statements. To achieve this purpose, we did
not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of ICE’s internal control over financial reporting. Accordingly, we do
not express an opinion on the effectiveness of ICE’s internal control over financial reporting.
A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent,
or detect and correct misstatements on a timely basis. A significant deficiency is a deficiency, or a
combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit attention by those charged with governance. A material weakness is a
deficiency, or a combination of deficiencies, in internal control, such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis.
Our audit of ICE as of, and for the year ended, September 30, 2009 disclosed a material weakness in
the areas of information technology (IT) configuration management, security management, access
controls, and segregation of duties. These matters are described in the IT General Control Findings
by Audit Area section of this letter.




                                 KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                 member firm of KPMG International, a Swiss cooperative.
The material weakness described above is presented in our Independent Auditors’ Report, dated
December 18, 2009. This letter represents the separate restricted distribution letter mentioned in
that report.
The control deficiencies described herein have been discussed with the appropriate members of
management, and communicated through a Notice of Finding and Recommendation (NFR). Our
audit procedures are designed primarily to enable us to form an opinion on the consolidated
financial statements, and therefore may not bring to light all weaknesses in policies or procedures
that may exist. We aim to use our knowledge of ICE gained during our audit engagement to make
comments and suggestions that are intended to improve internal control over financial reporting or
result in other operating efficiencies.
The Table of Contents on the next page identifies each section of the letter. We have provided a
description of key ICE financial systems and IT infrastructure within the scope of the FY 2009 ICE
consolidated financial statement audit in Appendix A; a description of each internal control finding
in Appendix B; and the current status of the prior year NFRs in Appendix C. Our comments related
to certain additional matters have been presented in a separate letter to the Office of Inspector
General and the ICE Chief Financial Officer dated December 9, 2009.

This communication is intended solely for the information and use of DHS and ICE management,
DHS Office of Inspector General, OMB, U.S. Government Accountability Office, and the U.S.
Congress, and is not intended to be and should not be used by anyone other than these specified
parties.

Very truly yours,
                              Department of Homeland Security
 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2009

                   INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                       TABLE OF CONTENTS

                                                                                                      Page
Objective, Scope and Approach 

                                                                                                       1
 

Summary of Findings and Recommendations 

                                                                                                       3
 

IT General Control Findings by Audit Area 

                                                                                                       4

 Findings Contributing to a Material Weakness in IT 

                                                                                                       4

       Configuration Management 

                                                                                                       4

       Security Management (includes After-Hours Physical Security Testing) 

                                                                                                       4
 

       Access Controls                                                                                 5
 

                                                                                                       5
 

       Segregation of Duties



Application Controls
                                                                                                       9


Management’s Comments and OIG Response                                                                 9


                                           APPENDICES
 


Appendix                                           Subject                                            Page

           Description of Key ICE Financial Systems and IT Infrastructure within the Scope of the 

   A                                                                                                    10
           FY 2009 DHS Financial Statement Audit Engagement

   B       FY 2009 Notices of IT Findings and Recommendations at ICE                                    12
 


               -   Notice of Findings and Recommendations – Definition of 

                   Severity Ratings                                                                     13
 


           Status of Prior Year Notices of Findings and Recommendations and Comparison to 

   C
           Current Year Notices of Findings and Recommendations at ICE                                  19
 



   D       Management’s Comments 

                                                                                                        21


   E       Report Distribution                                                                          22 

                              Department of Homeland Security
 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2009



                     OBJECTIVE, SCOPE AND APPROACH

We have audited the Immigration and Custom Enforcement (ICE) agency’s balance sheet as of
September 30, 2009. In connection with our audit of ICE’s balance sheet, we performed an
evaluation of information technology general controls (ITGC), to assist in planning and performing
our audit. The Federal Information System Controls Audit Manual (FISCAM), issued by the
Government Accountability Office (GAO), formed the basis of our ITGC evaluation procedures.
The scope of the ITGC evaluation is further described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of
the financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following five control functions to be
essential to the effective operation of the general IT controls environment.

�	 Security Management (SM) – Controls that provide a framework and continuing cycle of
   activity for managing risk, developing security policies, assigning responsibilities, and
   monitoring the adequacy of computer-related security controls.
�	 Access Control (AC) – Controls that limit or detect access to computer resources (data,
   programs, equipment, and facilities) and protect against unauthorized modification, loss, and
   disclosure.
�	 Configuration Management (CM) – Controls that help to prevent unauthorized changes to
   information system resources (software programs and hardware configurations) and provides
   reasonable assurance that systems are configured and operating securely and as intended.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to manage who can control key aspects of computer-related operations.
�	 Contingency Planning (CP) – Controls that involve procedures for continuing critical operations
   without interruption, or with prompt resumption, when unexpected events occur.


To complement our general IT controls audit procedures, we also performed technical security
testing for key network and system devices, as well as testing over key financial application
controls in the ICE environment. The technical security testing was performed both over the
Internet and from within select ICE facilities, and focused on test, development, and production
devices that directly support key general support systems.




                                         1

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                              Department of Homeland Security
 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2009




In addition to testing ICE’s general control environment, we performed application control tests on
a limited number of ICE’s financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

   �	 Application Controls (APC) - Application controls are the structure, policies, and
      procedures that apply to separate, individual application systems, such as accounts payable,
      inventory, or payroll.




                                         2

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                              Department of Homeland Security
 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2009



         SUMMARY OF FINDINGS AND RECOMMENDATIONS
During fiscal year (FY) 2009, ICE took corrective action to address prior year IT control
weaknesses. For example, ICE made improvements over tracking and maintaining Active
Directory Exchange (ADEX) user access forms and securing its backup facility from unauthorized
access. However, during FY 2009, we continued to identify IT general control weaknesses that
could potentially impact ICE’s financial data. The most significant weaknesses from a financial
statement audit perspective related to controls over the Federal Financial Management System
(FFMS) and the weaknesses over physical security and security awareness. Collectively, the IT
control weaknesses limited ICE’s ability to ensure that critical financial and operational data were
maintained in such a manner to ensure confidentiality, integrity, and availability. In addition, these
weaknesses negatively impacted the internal controls over ICE financial reporting and its operation
and we consider them to collectively represent a material weakness for ICE under standards
established by the American Institute of Certified Public Accountants (AICPA). In addition, based
upon the results of our test work, we noted that ICE did not fully comply with the requirements of
the Federal Financial Management Improvement Act (FFMIA).
Of the 14 findings identified during our FY 2009 testing, all were new IT findings. These findings
represent weaknesses in four of the five FISCAM key control areas. Specifically these weakness
are: 1) unverified access controls through the lack of comprehensive user access privilege re­
certifications, 2) security management issues involving staff security training, exit processing
procedures and contractor background investigation weaknesses, 3) inadequately designed and
operating configuration management, and 4) lack of effective segregation of duties controls within
financial applications. These weaknesses may increase the risk that the confidentiality, integrity,
and availability of system controls and ICE financial data could be exploited thereby compromising
the integrity of financial data used by management and reported in ICE’s financial statements.
While the recommendations made by KPMG should be considered by ICE, it is the ultimate
responsibility of ICE management to determine the most appropriate method(s) for addressing the
weaknesses identified based on their system capabilities and available resources.




                                         3

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                               Department of Homeland Security
 

                            Immigration and Customs Enforcement 

                           Information Technology Management Letter
                                      September 30, 2009


           IT GENERAL CONTROL FINDINGS BY AUDIT AREA

Findings Contributing to a Material Weakness Deficiency in IT

During the FY 2009 financial statement audit, we identified the following IT and financial system
control deficiencies that in the aggregate are considered a material deficiency:

1.      Configuration Management – we identified:

        �	 Security configuration management weaknesses on ADEX. These weaknesses included
           default configuration settings, inadequate patches, and weak password management.

2.      Security Management – we identified:

        �	 During social engineering testing, 5 out of 20 staff provided their login and password.
        �	 Physical security weaknesses which identified improper protection of system user
           names and passwords, unsecured information security hardware, documentation
           containing Personally Identifiable Information (PII) or marked “For Official Use Only”,
           and unlocked network sessions. The specific results are listed below:


                                              ICE Locations Tested
                                   OFM            OCIO PCN         OCFO PCN           Total
                                TechWorld          3rd floor        4th floor     Exceptions by
         Exceptions Noted        10th floor                                           Type
     User Name and                   19                3               4               26
     Passwords
     For Official Use Only           1                 2               1               4
     (FOUO)
     Keys/Badges                     0                 1               1                2
     Personally Identifiable        13                 2               0               15
     Information (PII)
     Server Names/IP                 0                 2               0               2
     Addresses
     Laptops                         1                  2               0              3
     External Drives                 2                  3               1              6
     Credit Cards                    1                  0               0              1
     Classified Documents            0                  0               0              0
     Other - Describe            1 personal       1 workstation   1 workstation        3
                                 checkbook        logged in w\o   logged in w\o
                                                   screensaver     screensaver
                                                    activated       activated
     Total Exceptions by            38                 16               8              62
     Location



                                         4
Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                                 Department of Homeland Security
 

                              Immigration and Customs Enforcement 

                             Information Technology Management Letter
                                        September 30, 2009

          �	 Procedures for transferred and terminated personnel exit processing are not being
             consistently followed.
          �	 Background reinvestigations for contractors were not consistently performed.
          �	 IT Security training is not mandatory nor is compliance monitored.

3.	 Access controls – we identified:

       �	 A lack of recertification of ADEX and FFMS system users.
       �	 ADEX account lockout settings are not compliant with DHS policy.
       �	 ADEX system access was not consistently removed for terminated employees and
          contractors.
       �	 FFMS password settings are not compliant with DHS policy.
       �	 Physical security personnel are not adequately trained to detect non-conforming credentials
          that can be used to gain unauthorized access.

4.	 Segregation of Duties – we identified:

       �	 FFMS roles and responsibilities for the Originator, Funds Certification Official, and 

          Approving Official profiles were not effectively segregated. 


Recommendations: We recommend that the ICE Chief Information Officer (CIO) and Chief
Financial Officer (CFO), in coordination with the DHS Office of Chief Financial Officer and the
DHS Office of the Chief Information Officer, make the following improvements to ICE’s financial
management systems and associated information technology security program.
Configuration Management:
1. 	       Redistribute procedures and train employees on continuously monitoring and mitigating
           vulnerabilities. In addition, we recommend that ICE periodically monitor the existence of
           unnecessary services and protocols running on their servers and network devices, in
           addition to deploying patches.
2. 	       Perform vulnerability assessments and penetration tests on all offices of the ICE, from a
           centrally managed location with a standardized reporting mechanism that allows for
           trending, on a regularly scheduled basis in accordance with NIST guidance.
3. 	       Develop a more thorough approach to track and mitigate configuration management and
           resource vulnerabilities identified during monthly scans. ICE should monitor the
           vulnerability reports for necessary or required configuration changes to its environment.
4. 	       Develop a process to verify that systems identified with “HIGH/MEDIUM Risk”
           configuration vulnerabilities do not appear on subsequent monthly vulnerability scan
           reports, unless they are verified and documented as a false-positive. All risks identified
           during the monthly scans should be mitigated immediately, and not be allowed to remain
           dormant.
5. 	       Implement the corrective actions identified during the audit vulnerability assessment.


                                         5

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                                  Department of Homeland Security
 

                               Immigration and Customs Enforcement 

                              Information Technology Management Letter
                                         September 30, 2009

Security Management:

1.	 	       Ensure that users are trained and aware of safeguarding login credentials, locking network
            sessions to DHS systems, and locking any sensitive information, media containing sensitive
            information, or data not suitable for public dissemination in secure locations when not in
            use.

2. 	        Effectively limit access to DHS buildings, rooms, work areas, spaces, and structures
            housing IT systems, equipment, and data to authorized personnel.

3.	 	       Adhere to exit clearance procedures and require personnel to follow them in the event of
            transfer\termination.

4.	 	       Periodically review personnel files to confirm background reinvestigations have been
            completed in accordance with DHS standards.

5. 	        Implement mandatory requirements for IT security personnel to complete training
            consistent with their job function duties.

6. 	        Remove system access for personnel that are not in compliance with training requirements.
            In addition, document procedures regarding disabling user accounts and access privileges in
            accordance with DHS policy.

Access Controls:

        1.	 	 Establish and implement policies and procedures for recertification of system user
              privileges. This process should include a method to document user recertification and a
              process to maintain evidence of the reviews.

        2.	 Develop processes for the removal of transferred and terminated users within ADEX upon
            their separation.

        3.	 Modify ADEX lockout settings to comply with DHS policy.

        4.	 Update FFMS password configuration settings to comply with DHS policy.

        5.	 	 Train physical security personnel to recognize DHS issued identification and to deter non­
              conforming credentials.

Segregation of Duties:

        1.	 Enforce policies and procedures to ensure that assigned roles and responsibilities are
            commensurate with personnel job functions.




                                         6

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                               Department of Homeland Security
 

                            Immigration and Customs Enforcement 

                           Information Technology Management Letter
                                      September 30, 2009

Cause\Effect:

The ICE agency is not continuously monitoring the ICE ADEX General Support System (GSS)
vulnerability assessment scans for patch and configuration management vulnerabilities. As a result,
default configuration installations and unnecessary services operating on the ICE ADEX devices
increase the ability to compromise the availability, integrity, and confidentiality of financial data on
the network. Additionally, failure to apply critical vendor security patches exposes system and
network devices to new and existing vulnerabilities. This can expose the information system
controls environment to security breaches, unauthorized access, service interruptions, and denial of
service attacks.

ICE management has not ensured that personnel are adequately trained and aware of the basic IT
security policies described by DHS to ensure that system users are cognizant of computer security
principles. Without proper training and awareness, system users could potentially provide
unauthorized persons information to gain access to ICE resources and sensitive data that may result
in loss, damage, or theft.

ICE management has not ensured that personnel are adequately trained and aware of the basic IT
security policies described by DHS and ICE to protect their login credentials, lock network sessions
to DHS systems, secure information system hardware, and securely store/limit access to FOUO and
PII. The failure to control access to sensitive IT resources and ICE documentation could potentially
result in the theft or destruction of ICE assets, unauthorized access to sensitive information, and
disruptions in processing of ICE financial systems. Additionally, ICE personnel who are not
adequately trained to protect their login credentials present an increased risk of unauthorized access
to sensitive information from external and internal threats.

ICE personnel are not consistently complying with, or are unaware of, existing exit clearance
procedures. By not having a more efficient process by which personnel are made aware of
terminated or transferred employees, ICE’s IT environment could be significantly impacted as these
staff maintain unauthorized access or resources.

Due to lack of management oversight, background investigations are not initiated in a timely
manner. By allowing personnel access to organization information and information systems without
proper adjudication increases the risk of improper handling of sensitive information.

ICE management has not expended the time and resources necessary to formally document access
review and recertification procedures for system user accounts and access privileges. Because
access review and recertification procedures are not formally documented, reviewers do not have a
standard for effectively conducting the recertification of FFMS accounts. This could lead to the
risk of potentially allowing users to have account privileges that are no longer needed, or should not
have been initially granted.

ICE management had not taken sufficient measures to ensure that financial system users comply
with established policies related to the proper segregation of duties. Without enforcing compliance
with proper segregation of duties, management is not able to maintain an effective control
environment. The failure to segregate the initiation and approval of transactions on business
applications results in an increased risk that transactions may be inappropriately executed.
                                                    7

 Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                             Department of Homeland Security
 

                          Immigration and Customs Enforcement 

                         Information Technology Management Letter
                                    September 30, 2009


Criteria: The Federal Information Security Management Act (FISMA) passed as part of the
Electronic Government Act of 2002, mandates that Federal entities maintain IT security programs in
accordance with OMB and NIST guidance. OMB Circular No. A-130, Management of Federal
Information Resources, and various NIST guidelines describe specific essential criteria for
maintaining effective general IT controls. FFMIA sets forth legislation prescribing policies and
standards for executive departments and agencies to follow in developing, operating, evaluating,
and reporting on financial management systems. The purpose of FFMIA is: (1) to provide for
consistency of accounting by an agency from one fiscal year to the next, and uniform accounting
standards throughout the Federal Government; (2) require Federal financial management systems to
support full disclosure of Federal financial data, including the full costs of Federal programs and
activities; (3) increase the accountability and credibility of federal financial management; (4)
improve performance, productivity and efficiency of Federal Government financial management;
and (5) establish financial management systems to support controlling the cost of Federal
Government. In closing, for this year’s IT audit we assessed the DHS component’s compliance
with DHS Sensitive System Policy Directive 4300A.




                                         8

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                              Department of Homeland Security
 

                           Immigration and Customs Enforcement 

                          Information Technology Management Letter
                                     September 30, 2009




                      APPLICATION CONTROLs FINDINGS

We did not identify any findings in the area of application controls during the fiscal year 2009 ICE
audit engagement.


            MANAGEMENT’S COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the Immigration and Customs
Enforcement management. Generally, the ICE management agreed with all of our findings and
recommendations. The ICE management has developed a remediation plan to address these
findings and recommendations. We have included a copy of the comments in Appendix D.


OIG Response


We agree with the steps that ICE management is taking to satisfy these recommendations.


.




                                             9

    Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                                                                          Appendix A
                         Department of Homeland Security
 

                      Immigration and Customs Enforcement 

                     Information Technology Management Letter
                                September 30, 2009




                                  Appendix A


Description of Key ICE Financial Systems and IT Infrastructure
within the Scope of the FY 2009 DHS Financial Statement Audit




                                         10

Information Technology Management Letter for the FY 2009 ICE Financial Statement Audit
                                                                                  Appendix A
                            Department of Homeland Security
                         Immigration and Customs Enforcement
                        Information Technology Management Letter
                                   September 30, 2009

Below is a description of significant Immigration and Custom Enforcement (ICE) financial
management systems and supporting information technology (IT) infrastructure included in the
scope of ICE’s fiscal year (FY) 2009 Financial Statement Audit.


Locations of Review: ICE Headquarters, Washington, DC; The Burlington Finance Center (BFC),
Burlington, VT; Department of Commerce (DOC) Office of Computer Services (OCS), Springfield,
VA.


Systems Subject to Audit:
�	 Federal Financial Management System (FFMS): It is used to create and maintain a record of
   each allocation, commitment, obligation, travel advance and accounts receivable issued. It is
   the system of record for the agency and supports all internal and external reporting
   requirements.

�	 ICE Network: The ICE Network, also know as the Active Directory/Exchange (ADEX) E-mail
   System, is the general support system (GSS) for ICE and other DHS components.




                                         11
 

Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                           Appendix B
                          Department of Homeland Security
 

                       Immigration and Customs Enforcement 

                      Information Technology Management Letter
                                 September 30, 2009




                                   Appendix B 

 FY 2009 Notices of IT Findings and Recommendations at ICE 





                                         12
 

Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                     Appendix B
                                Department of Homeland Security
                             Immigration and Customs Enforcement
                            Information Technology Management Letter
                                       September 30, 2009


Notice of Findings and Recommendations (NFR) – Definition of Severity Ratings:

Each NFR listed in Appendix B is assigned a severity rating from 1 to 3 indicating the influence on
the Department of Homeland Security (DHS) Consolidated Independent Auditors Report.

      1 – Not substantial
      2 – Less significant
      3 – More significant

The severity ratings indicate the degree to which the deficiency influenced the determination of
severity for consolidated reporting purposes.

These rating are provided only to assist ICE in the development of its corrective action plans for
remediation of the deficiency.




                                         13
 

Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                                 Appendix B
                                                   Department of Homeland Security
 

                                                Immigration and Customs Enforcement 

                                               Information Technology Management Letter
                                                          September 30, 2009

                                                  FY 2009 Information Technology
                                      Notification of Findings and Recommendations – Detail
                                                                                                                        New     Repeat   Severity
NFR #                          Condition                                           Recommendation
                                                                                                                        Issue    Issue    Rating
ICE-IT­   We accessed ICE facilities located at the Tech World       We recommend that ICE train physical security       X                  2
 09-11    Building on 800 K Street and the PCN Tower on 500          personnel to recognize DHS issued identification
          and 12th Street without the use of DHS issued              or credentials and detect non-conforming
          credentials. Moreover, we overtly presented non­           credentials.
          government issued identification to building security
          and was then granted physical access to the facilities.

ICE-IT­   Ineffective/non-compliant account lockout counter          The Enterprise Operations Division of the OCIO      X                  2
 09-12    settings During the FY09 audit, KPMG inquired of           adjusted the lockout settings after they were
          ICE OCIO personnel about ADEX account settings,            informed by us of the discrepancy.          No
          reviewed the account lockout settings, and inspected       recommendation given.
          ICE’s logical access polices and found that the
          account lockout settings for ADEX was not compliant
          with DHS policy.        DHS policy requires that the
          system is to lock user accounts after three consecutive
          invalid login attempts within a 24 hour period.
          However, within ADEX, the number of invalid
          attempts to access the system resets to zero after 30
          minutes if up to two invalid access attempts are made.
          Therefore, several attempts can initiated as long as the
          user waits 30 minutes before attempting again.

ICE-IT­   We determined that the FFMS password settings              We recommend that ICE update the FFMS               X                  2
 09-13    require the use of an underscore and does not allow        password configuration settings to be in
          the use of any other special characters such as !, @, #,   compliance with DHS 4300A policies.
          $, %, or *, which is not compliant with DHS policy.
          The DHS policy requires that passwords contain a
          combination of alphabetic, numeric, and special
          characters.


                                                           14
                  Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                                    Appendix B
                                                   Department of Homeland Security
 

                                                Immigration and Customs Enforcement 

                                               Information Technology Management Letter
                                                          September 30, 2009

                                                                                                                           New     Repeat   Severity
NFR #                          Condition                                            Recommendation
                                                                                                                           Issue    Issue    Rating




ICE-IT­   We identified that the ADEX user recertification           We recommend that ICE management establish             X                  2
 09-14    process is not designed appropriately. Specifically, we    and implement policies and procedures for
          noted a lack of formal policy and procedure for            recertification of ADEX user privileges. This
          managing the periodic review of ADEX general user          process should include a method to document user
          access. In addition, the informal process contingent       recertification and a process to maintain evidence
          upon personnel’s annual completion of the                  of the reviews.
          Information Assurance Awareness Training (IAAT) as
          a mitigating control for ensuring a review of users’
          access on a periodic basis is insufficient.

ICE-IT­   We inquired of ICE OCIO personnel about the process        We recommend that ICE management establish             X                  2
 09-15    for recertifying FFMS user access (review of access        and implement policies and procedures for
          privileges) and found that this process is not formally    recertification of FFMS user privileges. This
          documented. Furthermore, we identified that the            process should include a method to document user
          review for the access privileges for each FFMS             recertification and a process to maintain evidence
          account is not adequately recorded and no audit trail is   of the reviews.
          available to support that a recertification was
          completed.

ICE-IT­   We determined that weaknesses exist over ADEX              We recommend ICE management develop                    X                  2
 09-16    access. Specifically, we found that 14 users, which        processes for the removal of transferred/terminated
          were separated from ICE, still had active ADEX             users within ADEX upon their separation.
          accounts that were not removed upon their
          termination/transfer.




                                                           15
                  Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                                 Appendix B
                                                  Department of Homeland Security
 

                                               Immigration and Customs Enforcement 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                        New     Repeat   Severity
NFR #                          Condition                                          Recommendation
                                                                                                                        Issue    Issue    Rating
ICE-IT­   We performed an inspection of a listing of FFMS           We recommend that ICE enforce policies and           X                  2
 09-17    users and their assigned roles/responsibilities and       procedures to ensure that assigned roles and
          determined that 6 users had Originator, Funds             responsibilities are commensurate with personnel
          Certification Official, and Approving Official profiles   job functions.
          that were in violation of FFMS segregation of duties
          policies.

ICE-IT­   We identified that background reinvestigations are not    We recommend ICE management periodically             X                  2
 09-18    conducted in a timely manner. We performed an             review personnel files to confirm background
          inspection of a sample of ICE personnel requiring         reinvestigations have been completed in
          reinvestigations during the fiscal year and of the 25     accordance with DHS standards.
          ICE employees sampled, evidence of background
          reinvestigations during FY 2009 could not be provided
          for 16 contractors.

ICE-IT­   We performed an inspection of a sample of personnel       We recommend ICE management adhere to exit           X                  2
 09-19    that had terminated/transferred from their employment     clearance procedures and require personnel to
          with ICE during the fiscal year. We requested             follow them in the event of transfer/termination.
          evidence that exit clearance forms were completed for
          each employee to determine ICE management’s
          compliance with exit clearance procedures. Of the 25
          terminated/transferred ICE personnel sampled,
          evidence of compliance with exit clearance procedures
          could not be provided for 12 employees.

ICE-IT­   We determined that ICE lacks policies and procedures      We recommend that ICE management implement           X                  2
 09-20    requiring completion of a training program by             mandatory requirements for IT security personnel
          personnel in IT security positions.                       to complete training consistent with their job
                                                                    function duties.




                                                           16
                  Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                                   Appendix B
                                                  Department of Homeland Security
 

                                               Immigration and Customs Enforcement 

                                              Information Technology Management Letter
                                                         September 30, 2009

                                                                                                                          New     Repeat   Severity
NFR #                          Condition                                          Recommendation
                                                                                                                          Issue    Issue    Rating
ICE-IT­   During the internal vulnerability assessment efforts of                                                          X                  2
 09-21    ICE’s network servers and systems we identified           In addition to addressing the specific
          several High/ Medium Risk vulnerabilities, related to     vulnerabilities identified in the condition, ICE
                                                                    should:
          configuration management. We determined that
          security configuration management weaknesses (i.e.,       �    Redistribute procedures and train employees
          missing security patches and incorrect configuration           on continuously monitoring and mitigating
          settings) exist on hosts supporting the ICE.                   vulnerabilities. In addition, we recommend
                                                                         that ICE periodically monitor the existence of
                                                                         unnecessary services and protocols running
                                                                         on their servers and network devices, in
                                                                         addition to deploying patches.
                                                                    �    Perform vulnerability assessments and
                                                                         penetration tests on all offices of the ICE,
                                                                         from a centrally managed location with a
                                                                         standardized reporting mechanism that
                                                                         allows for trending, on a regularly scheduled
                                                                         basis in accordance with NIST guidance.
                                                                    �    Develop a more thorough approach to track
                                                                         and mitigate configuration management
                                                                         vulnerabilities identified during monthly
                                                                         scans. ICE should monitor the vulnerability
                                                                         reports     for    necessary    or    required
                                                                         configuration changes to their environment.
                                                                    �    Develop a process to verify that systems
                                                                         identified with “HIGH/MEDUIM Risk”
                                                                         configuration vulnerabilities do not appear on
                                                                         subsequent monthly vulnerability scan
                                                                         reports, unless they are verified and
                                                                         documented as a false-positive. All risks
                                                                         identified during the monthly scans should be



                                                           17
                  Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                                 Appendix B
                                                 Department of Homeland Security
 

                                              Immigration and Customs Enforcement 

                                             Information Technology Management Letter
                                                        September 30, 2009

                                                                                                                        New     Repeat   Severity
NFR #                          Condition                                         Recommendation
                                                                                                                        Issue    Issue    Rating
                                                                        mitigated immediately, and not be allowed to
                                                                        remain dormant.



ICE-IT­   During our after hours physical testing, we identified   KPMG recommends that ICE management                   X                  2
 09-22    26 passwords, 4 For Official Use Only Violations , 2     implement processes to:
          unsecured ID badges/keys, 15 Personally Identifiable         � Ensure that users are trained and aware of
          Information violations, 2 server names/IP addresses, 3            safeguarding login credentials, locking
          unsecured laptops, 6 unsecured external drives, 1                 network sessions to DHS systems, and
          unsecured credit card, and 2 users logged into a                  locking any sensitive information, media
          system without an active screen saver set.                        containing sensitive information, or data
                                                                            not suitable for public dissemination in
                                                                            secure locations when not in use.
                                                                       � Effectively limit access to DHS buildings,
                                                                            rooms, work areas, spaces, and structures
                                                                            housing IT systems, equipment, and data
                                                                            to authorized personnel
ICE-IT­   We identified that the IT security awareness training    We recommend ICE management to:                       X                  2
 09-23    requirements are not enforced. Of the population of        �       Remove system access for personnel that
          staff that had not taken the training by the ICE                   are not in compliance with training
          deadline of 6/1/09, we determined that 3 employees                 requirements.
          still maintained system access.         Additionally,    � Document procedures regarding the disabling
          procedures are not in place to disable user accounts         of user accounts and access privileges in
          and access privileges if annual training is not              accordance with DHS policies for employees
          completed.                                                   not in compliance.




                                                           18
                  Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                           Appendix C
                          Department of Homeland Security

                       Immigration and Customs Enforcement 

                      Information Technology Management Letter
                                 September 30, 2009




                                  APPENDIX C
Status of Prior Year Notices of Findings and Recommendations 

                      and Comparison to
 

Current Year Notices of Findings and Recommendations at ICE 





                                         19

Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                  Appendix C
                                   Department of Homeland Security
                                Immigration and Customs Enforcement
                               Information Technology Management Letter
                                          September 30, 2009



                                                                                  Disposition
NFR No.          Description                                                Closed         Repeat

                  Weak ICE Network/ADEX Access Controls Exist
  ICE-IT-08-04                                                                X
                  ICENet\ADEX Contingency Plan is not Stored at Offsite
  ICE-IT-08-09    Locations                                                   X
                  ICENet\ADEX Backup Facility Access is not Appropriately
  ICE-IT-08-10    Secured from Unauthorized Access                            X




                                             20
    Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                                                                        Appendix D
                               Department of Homeland Security 

                            Immigration and Customs Enforcement 

                           Information Technology Management Letter
                                      September 30, 2009



                                                                          Office of'he Auis/tIIlt Secreltlry
                                                                          U.S. I}tll:ll'llllcnl of Ilolllcl:ll1t1 Sccuritr
                                                                          500 121h Slreet. SW
                                                                          Washinglon. DC 20536


                                                                          u.s. Immigration
                                                                          and Customs
                                                                          Enforcement




                                                March 18, 2010


      MEMORANDUM fOR: Frank Dcffcr
                      Assistant Inspector General for Information Technology
                      Office of Inspector General

      fROM:                     Kathy A. Hill   k      r~lO
                                Dlrector~L~'
                               Office of Assurance and Compliance

      SUBJECT:                  Response to the DHS Ollice of Inspcctor General Draft Report:
                                "Information Technology Managemcnt Lettcr for the FY 2009 ICE
                                Financial Integrated Audit" daled February 18,2009

     Thank you for the opportunity 10 comment on the above subject draft rcport. The U.S. Immigration
     and Customs Enforcement (ICE) is committed to ensuring the proper internal controls arc in placc to
     safeguard critical financial and operational data.

      ICE concurred with all 13 of the recommendations contained in the dran report. Recommendations
      ICE-IT-09-11 and ICE-IT-09-18 have been assigned to the Office of Professional Responsibility,
      ICE-IT-09-19 has been assigned to the Office ofl-luman Capital, and the Office orthe Chief
      Financial Officer will monitor these recommendations. Previously, we requested that these
      recommendations bc resolved and closed. The remaining 10 recommendations will be resolved by
      the Office orthc Chief Infonnation Officer. Corrective actions for these 10 recommendations are
      contained in the Trusted Agent FISMA (TAF).

      Should you have any questions or concerns, please contact Claude Lucas, senior audit portfolio
      manager at (202) 732-4162 or bye-mail at Claude.Lucas@dhs.gov.




                                         21
Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
                                                                               Appendix E
                          Department of Homeland Security
 

                       Immigration and Customs Enforcement 

                      Information Technology Management Letter
                                 September 30, 2009

                Report Distribution

                Department of Homeland Security

                Secretary
                Deputy Secretary
                General Counsel
                Chief of Staff
                Deputy Chief of Staff
                Executive Secretariat
                Under Secretary, Management
                Assistant Secretary, ICE
                DHS Chief Information Officer
                DHS Chief Financial Officer
                Chief Financial Officer, ICE
                Chief Information Officer, ICE
                Chief Information Security Officer
                Assistant Secretary, Policy
                Assistant Secretary for Public Affairs
                Assistant Secretary for Legislative Affairs
                DHS GAO OIG Audit Liaison
                Chief Information Officer, Audit Liaison
                ICE Audit Liaison

                Office of Management and Budget

                Chief, Homeland Security Branch
                DHS OIG Budget Examiner

                Congress

                Congressional Oversight and Appropriations Committees as Appropriate




                                         22
Information Technology Management Letter for the FY 2009 ICE Financial Integrated Audit
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
